              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Operations




  Audit Report

National Security Laboratories' Annual
Reporting of the Nuclear Weapons
Stockpile Assessment




DOE/IG-0661                        September 2004
      •    While minor issues were noted, nothing came to our attention which would have
           undermined the validity of the assessment letters.

Although no material problems were identified, we did find that the procedures used by each of
the weapons laboratories were somewhat inconsistent in terms of: (1) the content and
presentation of the assessment letters; and, (2) the requirements of "red team" charters. The red
teams are laboratory technical evaluators who perform independent reviews of the conclusions
contained in the laboratory assessment reports. In addition, we found that the NNSA Stockpile
Coordinator did not have access to the reports issued by the red teams. We concluded that the
overall assessment process could be enhanced if these issues were addressed by NNSA. To its
credit, NNSA had taken steps to resolve some of these issues and improve the overall quality of
the next assessment package, which is due in December 2004.

Our observations regarding the representations made by the laboratory directors in their annual
assessments were based solely on supporting documentation and interviews with responsible
officials. We did not attempt to determine whether various science-based tools used to evaluate
reliability of the stockpile were appropriate.

MANAGEMENT REACTION

Management partially concurred with the conclusions of the report and the intent of the
recommendations. Although management agreed with the recommendation to enhance the
guidance to ensure consistency of laboratory responses, they disagreed with the recommendation
to have the NNSA Coordinator receive and review the laboratory red team reports. Management
believed that the red teams are resources of the laboratory directors and their reports should
remain at the laboratory level. Management stated that other information sources are sufficient
to meet the needs of the Coordinator.

In our opinion, NNSA’s efforts require the laboratories to specifically address content issues.
This is a positive step towards improving consistency of the assessment letters. We do not,
however, agree with the view that the NNSA Coordinator should be restricted from reviewing
the red team reports. While not specifically required by statute, reviews of these reports would
provide the Coordinator, a Federal official who is the focal point for the critically important
assessment program, with insight into the overall process and the ability to ensure that issues
raised by the red team reports are adequately resolved.

Management's comments are summarized beginning on page 3 and are included as Appendix 3.

Attachment

cc:       Deputy Secretary
          Administrator, National Nuclear Security Administration
REPORT ON NATIONAL SECURITY LABORATORIES'
ANNUAL REPORTING OF THE NUCLEAR WEAPONS
STOCKPILE ASSESSMENT




TABLE OF
CONTENTS


                Reporting of the Annual
                Assessment of the Weapons Stockpile

                Details of Finding ...................................................1

                Recommendations and Comments........................3

                Appendices

                1. Objective, Scope, and Methodology..................5

                2. Related Audit Reports and
                   Internal Reviews................................................7

                3. Management Comments...................................9
REPORTING OF THE ANNUAL ASSESSMENT OF THE
WEAPONS STOCKPILE


Schedule and   The National Defense Authorization Act (Defense Act) of Fiscal
Scope          Year 2003 required that the directors of the national security
               laboratories – Lawrence Livermore, Los Alamos, and Sandia –
               provide the Secretary of Energy and the Nuclear Weapons Council
               with an assessment report for each of the nuclear weapon types
               within their area of responsibility by December 1, 2003. As part of
               the laboratory assessment process, the laboratories each maintain a
               team of technical evaluators, those known as “red teams,” to
               perform independent reviews of the conclusions contained in the
               laboratory assessment reports. Members of the teams are chosen
               from all of the laboratories and each team has at least one
               representative from each laboratory. The Secretaries of Energy
               and Defense are required to submit to the President the original
               assessment letters received from the laboratory directors together
               with their comments.

               Our review showed that the national security laboratories had
               completed their annual assessment letters to the Secretary by the
               congressionally established deadline. In addition, based on our
               review and analyses of surveillance reports and interviews with
               weapons systems personnel, no issues were noted regarding the
               condition of the stockpile that, in our opinion, would have
               invalidated the annual assessment reports and the annual
               assessment letters. However, we identified some procedural
               issues, including inconsistencies between the laboratories in 1) the
               content of the assessment letters, and 2) the requirements of the red
               team charters. In addition, one practice, if implemented, could
               further enhance the Annual Stockpile Assessment process.
               Specifically, the NNSA Annual Stockpile Coordinator could better
               perform the responsibilities of overseeing the process by receiving
               and reviewing laboratory red team reports.


                            Content of the Annual Assessment Letters

               We found that the laboratories did not completely respond to all
               questions set forth in the Defense Act. For example, in Los
               Alamos' letter, the laboratory director stated that, if necessary, Los
               Alamos was prepared to resume weapons testing within the
               Stockpile Stewardship Program goals. Livermore made a similar
               determination, but with a less than clear qualification.




Page 1                                                        Details of Finding
         In another instance, Los Alamos and Sandia met the requirements
         of the Defense Act by detailing the adequacy of the tools and
         methods used to perform the Annual Stockpile Assessment.
         Conversely, Livermore excluded a direct statement regarding the
         tools used for the Fiscal Year 2003 Annual Stockpile Assessment.
         Instead, it discussed the progress in developing future science-
         based tools such as the National Ignition Facility and the Advanced
         Simulation Computing Initiative.

         Finally, Sandia met Congress' requirement that the letters contain a
         concise statement concerning the adequacy of the tools and
         methods employed by the manufacturing infrastructure. Livermore
         and Los Alamos considered the overall adequacy of the
         manufacturing tools to be outside their work scope and instead
         discussed the importance of the manufacturing complex and items
         of interest for the future. Congress also required that the letters
         contain a concise summary of the findings and recommendations
         made by the red teams. Livermore complied by including a list of
         red team findings in its letter. However, neither the Los Alamos
         nor the Sandia letters contain the required statements.

         In our view, the addition of formalized guidance from NNSA
         could help the laboratories more closely address the Defense Act
         requirements and could enhance understanding of the letters.

                            Red Team Charter Language

         The Defense Act also directed that laboratories use independent
         technical evaluators known as "red teams" to assist the laboratory
         directors in the Annual Stockpile Assessment. The Defense Act
         required each laboratory red team to include experts from each of
         the other national weapons laboratories. These teams produce
         reports for each laboratory director that contain challenges to and
         recommendations for each laboratory's annual assessment.
         Laboratory directors provide instructions to each of the red teams
         through a charter document.

         We found that the FY 2003 Livermore Red Team Charter
         specifically prohibited the red team from performing original
         technical work, such as conducting calculations or experiments.
         Since the laboratories' red teams provide a valuable management
         control in the form of independent challenges to the weapons
         teams' assumptions and conclusions about the certification status
         of each warhead, this restriction could compromise the value of
         that tool. In addition, the University of California's National



Page 2                                                Details of Finding
                  Certification Methodology for the Nuclear Weapons Stockpile
                  encourages the red teams to initiate and do their own work. The
                  FY 2003 charters for both Los Alamos and Sandia were fully
                  compliant with the National Certification Methodology in that they
                  were free of restrictive language. To its credit, NNSA required
                  Livermore to remove the restrictive language from its FY 2004
                  Red Team Charter.

                                          Red Team Reports

                  In addition, our review determined that the NNSA Annual
                  Stockpile Assessment Process Coordinator had not received the
                  results of the red team reviews from the laboratories. Reviewing
                  the red team reports could provide additional confidence that the
                  Annual Stockpile Assessment process controls are functioning
                  effectively. Specifically, the reviews conducted by the teams of
                  the Annual Stockpile Assessment permit NNSA to determine
                  whether all recommendations and challenges are addressed and
                  ultimately provide a mechanism to assess and improve the
                  effectiveness of its future annual execution plans. These plans
                  provide NNSA interpretation of the Defense Act and establish
                  guidance for each annual assessment cycle.

Enhancing         During our review, the issues identified in this report were
Management        discussed with an NNSA certification official. We were told
Control           that steps had been initiated to improve the overall quality of the
                  letters to the Secretary for FY 2004. Specifically, in its FY 2004
                  Annual Stockpile Assessment Execution Plan, NNSA has directed
                  the laboratory directors to consistently respond to all questions
                  posed by the Defense Act in their annual assessment letters to the
                  Secretary. In making our observations and suggestions, we
                  recognized that FY 2003 was the first year that the laboratories
                  were required to issue annual assessment letters under the
                  requirements of the new Defense Act. As such, NNSA and the
                  laboratories should be commended for a credible first effort.

RECOMMENDATIONS   To build upon the first-year certification efforts, we recommend
                  that the Administrator, National Nuclear Security Administration:

                      1. Enhance guidance on the Annual Stockpile Assessment
                         process to ensure consistency of responses from laboratory
                         to laboratory.

                      2. Ensure that the Stockpile Assessment Coordinator receives
                         and reviews the annual red team reports from each
                         laboratory.



Page 3                                        Recommendations and Comments
MANAGEMENT   Management partially concurred with the recommendations.
REACTION     Specifically, management concurred with the first recommendation
             to enhance the guidance to ensure consistency of responses for the
             Annual Stockpile Assessment process. For this year's cycle,
             NNSA instructed the laboratory directors to pay special attention
             to the questions contained in the National Defense Act, which
             meets the intent of our recommendations.

             However, management did not concur with the second
             recommendation to ensure that the Stockpile Assessment
             Coordinator receives and reviews the annual red team reports from
             each laboratory. Management's position is that the red teams are
             an asset of each of the laboratory directors and making their
             reports available to NNSA may affect the independence of the
             overall process. Further, having copies of each of the red team's
             charter and team membership; knowing that the laboratory
             directors are required to comment on their specific use of the red
             teams; and circulating and commenting on drafts of the assessment
             reports prior to final issuance, is sufficient and meets the intent of
             the recommendation.

AUDITOR      Management's efforts to provide additional guidance to the
COMMENTS     laboratories are responsive to the first recommendation in the
             report. However, we disagree with the premise that the NNSA
             Annual Assessment Coordinator should be denied access to the red
             team reports. We recognize that independent assessments by the
             laboratories are critical to the process; however, the Secretary,
             through the NNSA Assessment Coordinator, has a stewardship
             responsibility to ensure that issues raised by the red teams are
             adequately addressed and resolved. In our view, the review of red
             team charters, member lists, and comments made by the laboratory
             directors in the annual assessment letters are inadequate to ensure
             the adequacy of the process. Reviews of the red team reports
             would provide the added ability to ensure that concerns and
             recommendations made by the teams were adequately resolved and
             would be useful in formulating the Secretary's comments on the
             assessment letters. Based on our testing and interviews of red team
             members, the Coordinator's review should not interfere with team
             independence.




Page 4                                    Recommendations and Comments
Appendix 1
______________________________________________________________________

OBJECTIVE            The objective of the audit was to determine whether annual
                     Assessment letters prepared by the laboratories were fulfilling
                     statutory reporting requirements for the Annual Stockpile
                     Assessment.

SCOPE                The audit was performed from September 2003 until June 2004,
                     at NNSA Headquarters in Washington, D.C.; Lawrence Livermore
                     National Laboratory in Livermore, California; Los Alamos
                     National Laboratory in Los Alamos, New Mexico; and Sandia
                     National Laboratories in Albuquerque, New Mexico, and
                     Livermore, California.


METHODOLOGY          To accomplish the objective, we:


                         •   Researched laws and regulations pertaining to the Annual
                             Stockpile Assessment;

                         •   Performed tests and data analysis on sampled weapons
                             component surveillance data;

                         •   Reviewed surveillance reports, Fiscal Year 2003 Annual
                             Assessment Reports, Laboratory Directors' Annual
                             Assessment Letters, and Los Alamos division
                             memorandums to the Director;

                         •   Assessed NNSA implementation plans and University of
                             California National Certification Methodology for the
                             Nuclear Weapon Stockpile;

                         •   Reviewed related internal and external management
                             reports; and,

                         •   Interviewed NNSA, Livermore, Los Alamos, and Sandia
                             officials.

                     The audit was conducted in accordance with the Generally
                     Accepted Government Auditing Standards for performance audits
                     and included tests of internal controls and compliance with laws
                     and regulations to the extent necessary to satisfy the audit
                     objective. Accordingly, we assessed internal controls related to the



Page 5                                           Objective, Scope, and Methodology
Appendix 1
______________________________________________________________________

                     Annual Stockpile Assessment process. We also assessed the
                     performance measures under the Government Performance and
                     Results Act for 1993 and found that performance measures were in
                     place related to our audit objective. We did not test computer-
                     processed data since we did not rely on the data to satisfy the audit
                     objective. Because our review was limited, it would not
                     necessarily have disclosed all internal control deficiencies that may
                     have existed at the time of our audit.

                     We discussed the results of this audit with officials from NNSA on
                     September 9, 2004.




Page 6                                           Objective, Scope, and Methodology
Appendix 2
______________________________________________________________________

               RELATED AUDIT REPORTS AND INTERNAL REVIEWS


Office of Inspector General

   •   The National Nuclear Security Administration's Enhanced Surveillance Campaign
       (DOE/IG-0646, April 2004). The audit found that NNSA experienced delays in
       completing certain Enhanced Surveillance Campaign milestones and is at risk of missing
       some future milestones. The delays, some for as long as 23 months, were due primarily
       to weaknesses in project planning.

   •   Resolution of Significant Finding Investigation Recommendations (DOE/IG-0575,
       November 2002). The audit disclosed that while NNSA could account for the resolution
       of the 26 most serious SFI recommendations related to problems affecting weapon safety,
       reliability, or performance, the status of 74 additional recommendations, each with a
       potential consequence for the surveillance program's operations and processes, was not
       tracked.

   •   National Nuclear Security Administration's Test Readiness Program (DOE/IG-0566,
       September 2002). The audit disclosed that the Department's ability to conduct an
       underground nuclear test is at risk. Nevada and its support organization did not have
       adequate experienced staff, equipment, or facilities to carry out this requirement within
       the established timeframe.

   •   The Department of Energy's Pit Production Project (DOE/OIG-0551, April 2002). The
       audit disclosed that the Department's ability to produce a certifiable pit in accordance
       with its performance plans is at risk.

   •   Management of the Stockpile Surveillance Program's Significant Finding Investigations
       (DOE/IG-0535, December 2001). The audit found that the Department has not been
       meeting internally established time frames for initiating and conducting investigations of
       defects and malfunctions in nuclear weapons.

   •   Stockpile Surveillance Testing (DOE/IG-0528, October 2001). The audit found that
       surveillance testing backlogs existed in flight, laboratory, and component testing and
       when tests are delayed or not completed, the Department lacks essential information on
       the operating characteristics and reliability of the weapon.

Government Accountability Office

   •   NNSA: Nuclear Weapon Reports Need to Be More Detailed and Comprehensive (GAO-
       02-889R, July 2002). The Report stated that NNSA Nuclear Weapons Acquisition
       Reports are not comparable to DOD's Selected Acquisition Reports. In particular, the
       NWARs are less detailed and comprehensive.



Page 7                                          Related Audit Reports and Internal Reviews
Appendix 2
______________________________________________________________________

   •   Nuclear Weapons: Improved Management Needed to Implement Stockpile Stewardship
       Program Effectively (GAO-01-48, December 2000). The Report states that although the
       Office of Defense Programs has tried to address some of the challenges facing the
       Stockpile Stewardship Program, more improvements are needed. For example, Stockpile
       Stewardship Program plans are missing vital information.

Other Reports

   •   FY 2001 Report to Congress of the Panel to Assess the Reliability, Safety, and Security of
       the United States Nuclear Stockpile (March 2002). This congressionally established
       panel concluded that redirection of the Stockpile Stewardship Program is needed to
       maintain confidence in our nuclear stockpile.

   •   FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety, and Security of
       the United States Nuclear Stockpile (February 2001). This congressionally established
       panel found a disturbing gap between the nation's declaratory policy that maintenance of
       a safe and reliable nuclear stockpile is a supreme national interest and the actions taken to
       support this policy.

   •   FY 1999 Report to Congress of the Panel to Assess the Reliability, Safety, and Security of
       the United States Nuclear Stockpile (November 1999). The congressionally-appointed
       panel reported that effective execution of both the Stockpile Stewardship Program and
       Annual Certification Process offered the best hope for sustaining confidence in the
       nuclear stockpile, and its deterrent capabilities, into the future. The panel recommended
       strengthening and broadening the Annual Certification Process to provide assurance that
       potential problems are being sought out and reported.




Page 8                                           Related Audit Reports and Internal Reviews
Appendix 3




Page 9       Management Comments
Appendix 3




Page 10      Management Comments
                                                                    IG Report No.: DOE/IG-0661

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
